                 U.S. ELECTION ASSISTANCE
                        COMMISSION
                 OFFICE OF INSPECTOR GENERAL




                            FINAL REPORT:

                 ADMINISTRATION OF PAYMENTS
                   RECEIVED UNDER THE HELP
                AMERICA VOTE ACT BY THE STATE
                         OF FLORIDA

                 APRIL 25, 2003 THROUGH SEPTEMBER 30, 2007




Report No.
E-HP-FL-02-08
NOVEMBER 2008
                          U.S. ELECTION ASSISTANCE COMMISSION
                                   OFFICE OF INSPECTOR GENERAL
                                 1225 New York Ave. NW - Suite 1100
                                       Washington, DC 20005

                                                                                   November 17, 2008

Memorandum

To:        Thomas Wilkey
           Executive Director

From:      Curtis W. Crider
           Inspector General

Subject:   Final Audit Report - Administration of Payments Received Under the Help America Vote
           Act by the State of Florida (Assignment Number E-HP-FL-02-08)

       We contracted with the independent certified public accounting firm of Clifton Gunderson
LLP (Clifton Gunderson) to audit the administration of payments received under the Help America
Vote Act (HAVA) by the State of Florida Secretary of State (SOS). The contract required that the
audit be done in accordance with U.S. generally accepted government auditing standards. Clifton
Gunderson is responsible for the attached auditor’s report and the conclusions expressed therein.

        In its audit of the SOS, Clifton Gunderson concluded that, except for the issues at the county
level regarding HAVA related practices involving program income accounting and recognition;
equipment controls; procurement and disbursement procedures; and cash management controls, our
audit concluded that the SOS generally accounted for and expended HAVA funds in accordance with
the HAVA requirements and complied with the financial management requirements established by
the U.S. Election Assistance Commission. The SOS also complied with section 251 requirements.

        In its July 16, 2008 responses to the findings and recommendations (Appendix A), the SOS
was in general agreement, and proposed to implement corrective action. However, he was in partial
disagreement with requiring the reimbursement of those questionable expenditures that were included
in plans approved by the state Division of Elections, and disagreed with the recommendation to have
counties compute and repay interest that should have been earned on unexpended HAVA balances
from date of receipt.

       Please provide us with your written response to the recommendations included in this report
by January 20, 2009. Specifically, your response should indicate whether you agree or disagree with
the results of the audit. Your response should also indicate the basis and support for any
disagreements. In addition, the response should contain information on actions taken or planned,
including target dates and titles of EAC officials responsible for implementing the recommendations.

       The legislation, as amended, creating the Office of Inspector General (5 U.S.C. § App.3)
requires semiannual reporting to Congress on all audit reports issued, actions taken to implement
audit recommendations, and recommendations that have not been implemented. Therefore, this
report will be included in our next semiannual report to Congress.

        If you have any questions regarding this report, please call me at (202) 566-3125.
    PERFORMANCE AUDIT REPORT

ADMINISTRATION OF PAYMENTS RECEIVED
           UNDER THE HELP
      AMERICA VOTE ACT BY THE
          STATE OF FLORIDA

April 25, 2003 Through September 30, 2007


       UNITED STATES ELECTION
       ASSISTANCE COMMISSION
                                                  TABLE OF CONTENTS




                                                                                                                             PAGE

EXECUTIVE SUMMARY ............................................................................................................1

BACKGROUND..........................................................................................................................2

AUDIT OBJECTIVES .................................................................................................................2

SCOPE AND METHODOLOGY .................................................................................................3

AUDIT RESULTS .......................................................................................................................3

APPENDICES

Appendix A: Secretary Of State’s Response To Audit Results .............................................7

Appendix B: Audit Methodology............................................................................................12

Appendix C: Monetary Impact as of September 30, 2007.....................................................14
                        U.S. Election Assistance Commission
        Performance Audit of the Administration of Payments Received Under the
                     Help America Vote Act by the State of Florida


EXECUTIVE SUMMARY

Clifton Gunderson LLP was engaged by the U.S. Election Assistance Commission (EAC or the
Commission) Office of Inspector General to conduct a performance audit of the Florida Office of
the Secretary of State (SOS) for the period April 25, 2003 through September 30, 2007 to
determine whether the SOS used payments authorized by Sections 101, 102, and 251 of the
Help America Vote Act of 2002 (HAVA or the Act) in accordance with HAVA and applicable
requirements; accurately and properly accounted for property purchased with HAVA payments
and for program income, and met HAVA requirements for Section 251 funds for an election
fund, for a matching contribution. We did not include a determination of whether the SOS and
its subgrantees met the requirements for maintenance of a base level of state outlays because
the Commission is reviewing its guidance on the applicability of the maintenance of a base level
of state outlays to the SOS’s subgrantees.

In addition, the Commission requires states to comply with certain financial management
requirements, specifically:

    •   Comply with the Uniform Administrative Requirements For Grants And Cooperative
        Agreements With State And Local Governments (also known as the “Common Rule”)
        as published in the Code of Federal Regulations 41 CFR 105-71.

    •   Expend payments in accordance with cost principles for establishing the allowance or
        disallowance of certain items of cost for federal participation issued by the Office of
        Management and Budget (OMB) in Circular A-87.

    •   Submit detailed annual financial reports on the use of Title I and Title II payments.

We conducted this performance audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on the audit objectives. Because of inherent
limitations, a study and evaluation made for the limited purposes of our review would not
necessarily disclose all weaknesses in administering HAVA payments.

Except for the issues at the county level regarding HAVA related practices, which are discussed
below, our audit concluded that the SOS accounted for and expended HAVA funds in
accordance with the requirements mentioned above.             The exceptions needing SOS
management attention are as follows:

   •    The state’s oversight and monitoring of its subgrantees should be enhanced to ensure
        compliance with HAVA grant requirements relating to program income accounting and
        recognition; equipment controls; procurement and disbursement procedures; and cash
        management controls.




                                                  1
We have included in this report the SOS’s formal responses to the findings and
recommendations dated July 16, 2008.

BACKGROUND

The Help America Vote Act of 2002 created the EAC to assist states and insular areas with the
improvement of the administration of Federal elections and to provide funds to states to help
implement these improvements. HAVA authorizes payments to states under Titles I and II, as
follows:

   •   Title I, Section 101 payments are for activities such as complying with Title III of HAVA for
       uniform and nondiscriminatory election technology and administration requirements,
       improving the administration of elections for Federal office, educating voters, training
       election officials and poll workers, and developing a state plan for requirements
       payments.

   •   Title I, Section 102 payments are available only for the replacement of punch card and
       lever action voting systems.

   •   Title II, Section 251 requirements payments are for complying with Title III requirements
       for voting system equipment; and for addressing provisional voting, voting information,
       statewide voter registration lists, and voters who register by mail.

Title II also requires that states must:
     • Have appropriated funds “equal to 5 percent of the total amount to be spent for such
         activities [activities for which requirements payments are made].” [Section 253(b)(5)].

   •   “Maintain the expenditures of the State for activities funded by the [requirements] payment
       at a level that is not less than the level of such expenditures maintained by the State for
       the fiscal year ending prior to November 2000.” [Section 254 (a)(7)].

   •   Establish an election fund for amounts appropriated by the state “for carrying out the
       activities for which the requirements payment is made,” for the Federal requirements
       payments received, for “such other amounts as may be appropriated under law,” and for
       “interest earned on deposits of the fund.” [Section 254 )(b)(1)].

AUDIT OBJECTIVES

The objectives of our audit were to determine whether the State of Florida, Office of the
Secretary of State:

   1. Used payments authorized by Sections 101, 102, and 251 of the Help America Vote Act
      (HAVA) in accordance with HAVA and applicable requirements;

   2. Accurately and properly accounted for property purchased with HAVA payments and for
      program income;

   3. Met HAVA requirements for Section 251 funds for an election fund, for a matching
      contribution, and for maintenance of a base level of state outlays. We did not determine
      whether the SOS met the requirement for maintenance of a base level of state outlays



                                                  2
        because the Commission is reviewing its guidance on the applicability of the
        maintenance of a base level of state outlays to subgrantees of the SOS.

In addition, to account for HAVA payments, the Act requires states to maintain records that are
consistent with sound accounting principles that fully disclose the amount and disposition of the
payments, that identify the project costs financed with the payments and other sources, and that
will facilitate an effective audit. The Commission requires states receiving HAVA funds to
comply with certain financial management requirements, specifically:

    4. Comply with the Uniform Administrative Requirements For Grants And Cooperative
       Agreements With State and Local Governments (also known as the “Common Rule”) as
       published in the Code of Federal Regulations at 41 CFR 105-71.

    5. Expend payments in accordance with cost principles for establishing the allowance or
       disallowance of certain items of cost for federal participation issued by the Office of
       Management and Budget (OMB) in Circular A-87.

    6. Submit detailed annual financial reports on the use of Title I and Title II payments.1

SCOPE AND METHODOLOGY

We audited the HAVA funds received and disbursed by the SOS from April 25, 2003 through
September 30, 2007.

Funds received and disbursed from April 25, 2003 (program initiation date) to September 30,
2007 (53-month period) are shown below:

                                    FUNDS RECEIVED
  TYPE OF           EAC            STATE    INTEREST               TOTAL            FUNDS            DATA
  PAYMENT         PAYMENT          MATCH     EARNED              AVAILABLE        DISBURSED          AS OF

       101        $ 14,447,580       $       0      $1,199,135      $15,646,715       $12,158,480   9/30/2007
       102           11,581,377      $       0          37,355       11,618,732        11,581,077   9/30/2007
       251          132,502,091       6,973,794     12,402,622      151,878,507        86,448,331   9/30/2007


                   $158,531,048      $6,973,794    $13,639,112     $179,143,954      $110,187,888   9/30/2007


Our audit methodology is set forth in Appendix B.

AUDIT RESULTS

We conducted this performance audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable


1 EAC requires states to submit annual reports on the expenditure of HAVA Sections 101, 102, and 251 funds. For
Sections 101 and 102, reports are due on February 28 for the activities of the previous calendar year. For Section
251, reports are due by March 30 for the activities of the previous fiscal year ending on September 30.




                                                          3
basis for our findings and conclusions based on the audit objectives. Because of inherent
limitations, a study and evaluation made for the limited purposes of our review would not
necessarily disclose all weaknesses in administering HAVA payments.

Except for the state’s lack of monitoring the subgrantees, and for the determination of whether
the SOS and its subgrantees met the requirements for maintenance of a base level of state
outlays which were specifically omitted from our scope of audit work as explained above, the
SOS accounted for and expended HAVA funds in accordance with the requirements mentioned
above. This includes compliance with section 251 requirements for an election fund. The SOS
is working to resolve the exceptions in the areas described below:

Oversight and Monitoring of Subgrantees

We identified several issues at seven of the eight counties we visited and from responses to
questionnaires sent to the fifty-nine counties not visited that could have been prevented or
minimized with enhanced monitoring, as follows:

       1. Reporting of program income
       Program income generated at one of the counties from the use of HAVA funded
       equipment is not properly reported, recorded, or used for the HAVA program. The
       Supervisor of Elections deposited program income in the general fund, and did not make
       a determination of the portion of the income received allocable to the HAVA program
       that should have been reported to the Florida Department of State – Division of
       Elections.

       2. Equipment control procedures not adequate
       There were deficiencies in the procedures for controlling equipment purchased with
       HAVA funds at three of the eight counties visited. The annual equipment inventory at
       one of the counties visited consisted of a scan of the bar codes on the equipment listing,
       but did not include a physical observation of the items to ensure existence. HAVA
       funded computers donated by the State of Florida to two counties were not listed on the
       equipment inventory. The equipment listing at another county did not identify the items
       as purchased with HAVA funds.

       3. Expenditures not an appropriate use of HAVA funds
       In four of eight counties visited expenditures were identified that were questionable uses
       of HAVA funds totaling $89,669. These included payments for educational booklets and
       materials for students of non-voting age; promotional items that did not relate to
       educating voters about voting procedures, rights or technology; costs of organizing and
       conducting voter registration drives; and gifts for pollworkers.

       4. Disbursements not appropriate or not supported at one county
       Two disbursements, totaling $33,083 at one of the counties visited, did not have
       adequate documentation or evidence to support costs claimed against the HAVA grant
       program.

       5. Personnel costs not properly supported
       In one of the counties visited, the total cost for one employee was charged to the HAVA
       grant program; however, there was no certification or other evidence on file to provide
       justification for the charges.



                                                 4
       6. Poll worker charges not appropriate for voter registration drives
       Salaries and benefits for poll workers serving at voter registration drives in one of the
       counties visited were charged to the HAVA voter education grants, and the portion
       allocable to registration activity was not separately stated. Therefore, the total costs for
       the poll workers for fiscal years 2004 through 2006 of $139,056 are questioned.

       7. Interest earned not credited to the election fund
       Interest earned on HAVA funds received by six of the eight counties visited was under
       collected by an undetermined amount. In four of the counties, interest was computed
       and credited to the election fund; however, the determination of interest owed did not
       start upon receipt of HAVA funds from the state. In one county, interest was computed
       on the HAVA balances beginning with the receipt of the funds, but it was not
       compounded, resulting in lost interest of $582.58 as of September 30, 2007. We noted
       that one county did not start computing interest until October 2007, and did not recoup
       additional interest due of $2,639.26 earned on HAVA balances prior to September 30,
       2007.

       8. Cash management not performed properly at all of the counties
       Cash advances of HAVA funds were made to the counties from fiscal year 2004 through
       2007. We noted that cash balances were on hand at 48 of 58 counties that responded
       to the questionnaires sent them, and the reported balances totaled $15,878,530.70 as of
       September 30, 2007. The responses from the counties were varied regarding interest
       earned on unexpended funds, and ranged from depositing interest into the election fund
       to not computing any interest on the outstanding balances. We were unable to
       determine the total amount of interest earned on HAVA fund balances but not credited to
       the election funds for the benefit of the HAVA program.


Recommendations:

We recommend that the EAC direct Florida’s Secretary of State to strengthen its program for
monitoring the counties’ use of HAVA funds on a risk-based approach. In addition, the
Secretary should ensure appropriate corrective action is implemented to address the issues
noted above.

SOS Response:

The Secretary of State expressed general agreement with the issues identified above, and
proposed to implement corrective action; however, he was in partial disagreement with the
questionable uses of HAVA funds noted in item 3 and disagreed with item 8, noting that the
states were not informed that HAVA funding would be treated like other federal funding until
receipt of the EAC’s Frequently Asked Questions responses or from reading other states’
audits, as detailed in Appendix A.

Auditors’ Response:

Although we understand the Secretary’s position regarding the concerns expressed in his
response, we believe that the HAVA and other federal regulations provide appropriate guidance
on the use and control of federal funding. We recommend that the state contact the EAC to
address the issues where there is disagreement to determine a satisfactory resolution.



                                                  5
                               ****************************************

We provided a draft of our report to the appropriate individuals of the State of Florida Office of
the Secretary of State, and the United States Election Assistance Commission. We considered
any comments received prior to finalizing this report.

CG performed its work between January 14 and February 8, 2008.


a1
Calverton, Maryland
August 7, 2008




                                                    6
    Appendix A




7
8
9
10
11
                                                                                        Appendix B

                                    AUDIT METHODOLOGY


Our audit methodology included:

•   Assessing audit risk and significance within the context of the audit objectives.

•   Obtaining an understanding of internal control that is significant to the administration of the
    HAVA funds.

•   Understanding relevant information systems controls as applicable.

•   Identifying sources of evidence and the amount and type of evidence required.

•   Determining whether other auditors have conducted, or are conducting, audits of the
    program that could be relevant to the audit objectives.

To implement our audit methodology, below are some of the audit procedures we performed:

•   Interviewed appropriate SOS employees about the organization and operations of the HAVA
    program.

•   Reviewed prior single audit report and other reviews related to the state’s financial
    management systems and the HAVA program for the last 2 years.

•   Reviewed policies, procedures and regulations for the SOS’s management and accounting
    systems as they relate to the administration of HAVA programs.

•   Analyzed the inventory lists of equipment purchased with HAVA funds.

•   Tested major purchases and supporting documentation.

•   Tested randomly sampled payments made with the HAVA funds.

•   Verified support for reimbursements to local governments (counties, cities, and
    municipalities).

•   Reviewed certain state laws that impacted the election fund.

•   Examined appropriations and expenditure reports for state funds used to maintain the level
    of expenses for elections at least equal to the amount expended in fiscal year 2000 and to
    meet the five percent matching requirement for section 251 requirements payments.

•   Evaluated compliance with the requirements for accumulating financial information reported
    to the Commission on the Financial Status Reports, Form SF-269, accounting for property,
    purchasing HAVA related goods and services, and accounting for salaries.

•   Verified the establishment and maintenance of an election fund.


                                                   12
•   Verified whether the state has sustained the state’s level of expenditures for Elections.

•   Conducted site visits of selected counties and local election authorities in St. Louis County
    to perform the following:

        Observe equipment purchased with HAVA funds for proper accounting and
        safeguarding
        Test disbursement of HAVA funds for allowability and compliance
        Test cash receipts from SOS to ensure proper cash management
        Test procurement of voting equipment for competitive bid process
        Ensure compliance with HAVA Act




                                                  13
                                                                                Appendix C



              MONETARY IMPACT AS OF SEPTEMBER 30, 2007


                                                Questioned         Additional Funds for
                 Description                      Costs                  Program

   Interest earned not credited                            $0                     $3,222

   Oversight & Monitoring
      • Unallowable costs                              89,669                           0
      • Missing documentation                          33,083                           0
      • Voter registration drives                     139,056                           0

   Totals                                           $261,808                      $3,222


Note: In addition to the amounts shown in the schedule above, additional funds for the HAVA
      program should be made available as a result of the resolution of issues related to
      program income and interest earnings as discussed in the report.




                                               14
                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1225 New York Ave. NW - Suite 1100
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-0957


To Report Fraud,      By Mail: U.S. Election Assistance Commission
Waste and Abuse                Office of Inspector General
Involving the U.S.             1225 New York Ave. NW - Suite 1100
Election Assistance            Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
